Washington, D.C. 20530

February 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 2054
Re: Oscar Guevara Salamanca v. United States of America,
S.Ct. No. 20-6794
Dear Mr. Harris:
The petition for a writ of certiorari in this case was filed on December 31, 2020.
Although the government waived its right to file a response, the Court has requested that a
response be filed. The government’s response is now due on March 31, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including March 31, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-6794
SALAMANCA, OSCAR GUEVARA
USA

ERIN PHILLIPPI RUST
FEDERAL DEFENDER SERVICES
835 GEORGIA AVE.
STE. 600
CHATTANOOGA, TN 37402
423-756-4349
ERIN_RUST@FD.ORG

